GSA/OIG/A030160/A/W/F05016





                             AUDIT OF GSA’s
                   CONTINUITY OF OPERATIONS PROGRAM
                    REPORT NUMBER A030160/A/W/F05016

                              February 10, 2005
GSA/OIG/A030160/A/W/F05016

GSA/OIG/A030160/A/W/F05016



TABLE OF CONTENTS
EXECUTIVE SUMMARY
  PURPOSE ............................................................................................................................. 1 

  BACKGROUND ..................................................................................................................... 1 

  RESULTS-IN-BRIEF.............................................................................................................. 1 

  RECOMMENDATIONS ........................................................................................................... 1 

INTRODUCTION
  BACKGROUND ..................................................................................................................... 2 

  OBJECTIVE, SCOPE AND METHODOLOGY ............................................................................ 3 

RESULTS OF REVIEW
  SUMMARY ........................................................................................................................... 4 

  UNIFORM COOP TEMPLATE AND CHECKLIST FACILITATE PLANNING ................................ 4 

  AREAS TO IMPROVE: ESSENTIAL FUNCTIONS, VITAL RECORDS AND TESTING .................... 5 

  COOP TESTING SHOULD ALSO BE STANDARDIZED ACROSS REGIONS ............................... 7 

    Task Force....................................................................................................... 7

    Office of Emergency Management .................................................................. 7

    Regional Emergency Coordinators Collaboration ......................................... 8

  CONCLUSION ....................................................................................................................... 9 

  RECOMMENDATIONS ......................................................................................................... 10 

  MANAGEMENT’S COMMENTS ............................................................................................ 10 

  MANAGEMENT CONTROLS ................................................................................................ 10 

APPENDICES
  MANAGEMENT’S RESPONSE TO DRAFT REPORT................................................................ A-1 

  ELEMENTS OF A VIABLE COOP CAPABILITY ................................................................. B-1 

  REPORT DISTRIBUTION ................................................................................................... C-1 

GSA/OIG/A030160/A/W/F05016



EXECUTIVE SUMMARY

Purpose
Our objective was to determine if GSA has viable regional continuity of operations
programs in place; and if not, to determine the changes needed to improve the agency’s
regional ability to continue its mission critical essential functions.

Background
According to Federal Preparedness Circular (FPC) 651: “It is the policy of the United
States to have in place a comprehensive and effective program to ensure continuity of
essential federal functions under all circumstances.” Since January 2003, overall
responsibility for emergency preparedness in GSA has resided in the Office of Emergency
Management (OEM) within the Office of the Chief of Staff. There are 26 individual
continuity of operations plans (COOP) that collectively represent GSA. This review
focused on the COOP plans of GSA’s 11 regional offices.

Results-In-Brief
Overall, the GSA regional offices have developed COOP plans that are in compliance with
FPC 65 and, with refinement, will allow the agency to be prepared for, respond to, and
recover from disasters. However, more than one region showed a need for more complete
identification of essential functions and the information systems that support those
functions. We also found that the testing necessary to validate COOP effectiveness needs
to be implemented in a more uniform manner. Finally, we observed that while GSA is
actively constructing viable Continuity of Operations Programs in each of its 11 regions, it
has accomplished this without the benefit of effective centralized authority.

Recommendations
We recommend that the Chief of Staff establish an organization with authority, expertise
and resources sufficient to direct emergency preparedness in GSA. Specifically, that entity
should serve as a national focal point, capable of the following:
   a) Providing guidance, assistance and consultation to the regions through all stages of
       COOP exercises: setting objectives, selecting scenarios, determining what will be
       measured, how it is to be measured and how the results will be reported;
   b) Developing a training program for all regional emergency coordinators;
   c) Compiling and disseminating best practices and “things gone wrong”;
   d) Formalizing the COOP plan review process to ensure that it incorporates the results
       of tests and exercises, verification of corrective actions taken, and timely feedback.



1
 Federal Emergency Management Agency guidance provided to Federal Executive Branch departments and
agencies for use in developing viable and executable contingency plans for the continuity of operations
(COOP).

                                                   1

GSA/OIG/A030160/A/W/F05016



INTRODUCTION

Background
Emergencies can arise under a wide range of circumstances—some of them natural, others
man made—all capable of interrupting government functions. In the event of an
emergency, the General Services Administration’s (GSA) essential functions must be
maintained or rapidly and efficiently resumed. The primary emergency responsibilities of
all GSA components are planning for and providing logistical and telecommunication
support to Federal agencies, and the maintenance or resumption of its own activities during
emergencies. This includes but is not limited to providing space, telephone, transportation,
supplies, equipment, and procurement related services.

To maintain operational capacity during an emergency, advance preparation is not only
key, but also a requirement of the federal government. According to FPC 65: “It is the
policy of the United States to have in place a comprehensive and effective program to
ensure continuity of essential federal functions under all circumstances.” Since January
2003, overall responsibility for emergency preparedness in GSA has resided in the Office
of Emergency Management (OEM) within the Office of the Chief of Staff2. GSA further
distributes the responsibility for implementing emergency management among the main
organizational elements of services, staff offices and the regions. Each of these
organizations appoints its own emergency coordinator who has overall responsibility for
emergency management within his organization, and each creates its own COOP plan. For
FY 2003, there were 26 separate COOP plans, reflective of GSA’s organizational
structure.

Common to all plans, GSA has developed a time-phased approach for COOP activation
whereby critical resources are deployed early upon activation with other resources to
follow as needed. Activation involves the deliberate and pre-planned movement of
selected key principals and supporting staff to an alternative location facility.
Additionally, GSA headquarters and each region have established a Senior Emergency
Response Team (SERT). This group collectively reviews the emergency and determines
the best course of action for response and recovery. This can prevent premature or
inappropriate activation of the agency COOP plan. To ensure a logical sequence of events,
the time-phased approach involves deploying:
     • 	 Phase I associates are those who have a defined response and management role
         and are essential to the agency’s continued operations within the first 12 hours
         following an event that affects normal operations. These associates deploy to the
         alternate facility.




2
 GSA Order ADM 5440.569 established an Emergency Management Staff in the Office of the Chief of
Staff. Within GSA this staff is referred to as the Office of Emergency Management (OEM) so we have
followed that usage throughout this report.

                                                  2

GSA/OIG/A030160/A/W/F05016                                           



    • 	 Phase II associates are those who have a functional specialty of operational skills
        that may be required based on the event from 12 hours to termination of the
        COOP. These associates may also deploy to the alternate facility or work at home.
    • 	 Phase III associates are the balance of staff. These may be asked to remain at
        home until normal operations resume.
Objective, Scope and Methodology
The overall objectives of our audit were to determine: (a) if GSA has viable regional
continuity of operations programs in place that will allow the agency to be prepared for,
respond to, and recover from disasters resulting from natural, human, or technological
events; (b) if not, what changes are needed to improve the agency’s regional ability to
continue its mission critical essential functions. To maintain a viable sample size and
facilitate comparative analysis, we limited our scope of review to the regional COOP
plans. Given its decentralized, regionally oriented operating environment, the regional
COOP plans logically encompass a wide cross-section of GSA essential functions.

In order to accomplish our objectives, we performed the following:
   (1) Obtained and reviewed continuity of operations plans and test, training and
       exercise guidance issued by FEMA and GSA;
   (2) Reviewed and compared each regions’ 2003 contingency plans with the elements
       of FPC 65, and then followed up with a review of the regions’ 2004 plans;
   (3) Compared how well the plans addressed the elements identified in FPC 65; and
       compared how each region addressed each element to how the other regions
       addressed the same element;
   (4) Observed COOP deployment exercises performed in Regions 6, 9, and 10;
   (5) Interviewed Office of Emergency Management personnel, Regional Emergency
       Coordinators, and Regional Service personnel; and
   (6) Reviewed After Action Reports for all regional deployment exercises conducted in
       2003.
Our review was conducted between March 2003 and April 2004, in accordance with
generally accepted government auditing standards and in compliance with the laws and
regulations to the extent necessary to satisfy the review objectives.




                                            3

GSA/OIG/A030160/A/W/F05016



RESULTS OF REVIEW

Summary
Overall, the GSA regional offices have developed COOP plans that are in compliance with
FPC 65 and, with refinement, will allow the agency to be prepared for, respond to, and
recover from disasters. However, more than one region showed a need for more complete
identification of essential functions and the information systems that support those
functions. In addition, the testing necessary to validate COOP effectiveness should be
expanded and standardized.

We also found that while GSA is actively constructing viable continuity of operations
programs in each of its 11 regions, it has accomplished this without the benefit of effective
centralized authority. Nominal authority is vested in OEM, but as that organization has
struggled to establish itself, real authority has remained with the regions collectively. It
would be beneficial to arrive at a consensus as to the role OEM is to play. It is well
positioned to compile best practices and lessons learned from the various regional
exercises and offer suggestions for improving individual COOP plans. It has a logical role
to play in supporting the development of a test, training and exercise program, and
particularly in assuring that all COOP plans meet or exceed a defined standard.

Uniform COOP Template and Checklist Facilitate Planning
Since the events of September 11, 2001, the GSA regional emergency coordinators have
acted to continuously improve the agency’s Continuity of Operations Program and COOP
readiness. To begin the enhancement process, in 2002, the regional administrator for the
Heartland Region was temporarily detailed to head a task force comprised of associates
from each service or staff office as necessary. The task force also formed a smaller
working group to formulate strategy, draft materials, and do research.

This effort produced a uniform COOP shell and checklist template that was distributed to
all organizations for GSA-internal as well as other federal agencies’ use. The uniform
shell is a sample continuity of operations plan that was prepared in accordance with
Presidential Decision Directive 67 and subsequent implementing guidance in FPC 65. The
document contains general emergency language to be used by all GSA components, but
can also be tailored as necessary by each component. The checklists, also designed to
address the critical elements of FPC 65, are used to complement the COOP but not replace
it. They are an added feature of the COOP that provides a ready reference. GSA
institutionalized the use of the checklists by requiring them as part of its COOP
certification process.

Important information is provided at a glance in the checklists. For example, the “rapid
recall plan” is a checklist that provides a listing of emergency numbers for the region,
local utility companies, and federal, state and local agencies. The “key personnel and
essential functions” is a checklist that provides the position title and function of key staff
during Phase I and Phase II of an emergency. The “cascade plans” are phone trees that


                                              4

GSA/OIG/A030160/A/W/F05016


reach throughout the organization. These checklists allow for employee notification and
accountability.

The objective of COOP planning is to direct and guide appropriate actions to assure the
capability exists to continue essential agency functions across a wide range of potential
emergencies. COOP planning also includes: reducing loss of life and minimizing damage;
protecting essential facilities, equipment, and records; and reducing or mitigating
disruptions to operations. As described in FPC 65, a viable COOP plan will at a minimum
encompass the following:
    •   PLANS AND PROCEDURES;
    •   IDENTIFICATION OF ESSENTIAL FUNCTIONS;
    •   DELEGATION OF AUTHORITY;
    •   ORDERS OF SUCCESSION;
    •   ALTERNATE FACILITIES;
    •   INTEROPERABLE COMMUNICATIONS;
    •   VITAL RECORDS AND DATABASES; AND
    •   TESTS, TRAINING AND EXERCISES.
The guidance provides a general definition of each element and identifies several measures
that should be satisfied to address each topic.

Areas to Improve: Essential Functions, Vital Records and Testing
Our review of the 2003 and 2004 regional COOP submissions and subsequent testing is
summarized in the following table. Overall the regional COOP plans adhere to the FPC 65
criteria. Two of the first seven COOP elements showed a need for improvement in more
than one region: the identification of “essential functions” and access to “vital records and
databases” needed to support those functions. We did not attempt a qualitative evaluation
of COOP elements. Our results simply depict whether the plan addressed the element or
not. More specifically, our results show that not all regions have differentiated their
essential functions from their normal business operations, and not all regions have
determined how they will provide the system applications and access to records needed to
support essential functions from a remote location. This is a daunting task, and one that
will require continual updating. These elements represent the core of COOP preparedness.

We evaluate the eighth element, COOP testing, as it relates to the testing of all other
elements. In this instance we limit our results to the three regional exercises we were able
to observe. To do otherwise would interject an additional audit risk factor; i.e., placing
reliance on documentation that does not fairly represent the results of actual testing. As
above, our review does not attempt a qualitative evaluation of regional tests or exercises.
We simply record whether the tests contemplated an assessment of the element in question.
For example, an exercise that does not include the deployment of all essential personnel to
the alternate facility has not fully tested the capabilities of the alternate facility. On the
whole, the results display a less uniform implementation then was seen for the seven
primary elements. We consider this a symptom of organizational conflict, a topic that we
address later in this report under our discussion of the Office of Emergency Management.

                                              5

GSA/OIG/A030160/A/W/F05016                                                                  





See Appendix B for a description of the specific criteria and basis for the scoring that
appear below.

   COOP Element                           R1   R2   R3   R4    R5      R6   R7   R8   R9   R10 R11 COOP    Testing

                           Addressed in
        Plans and                         2    2    2    2         2   2    2    2    2    2    2   100%
                             COOP
       Procedures            Tested                                    2              2    2                100%
                           Addressed in
  Essential Functions                     1    2    2    2         2   2    2    1    2    1    1   82%
                             COOP
      Identified             Tested                                    2              2    0                67%
                           Addressed in
     Delegations of                       2    2    2    2         2   2    2    2    2    2    2   100%
                             COOP
       Authority             Tested                                    2              2    0                67%
                           Addressed in
                                          2    2    2    2         2   2    2    2    2    2    2   100%
                             COOP
 Orders of Succession
                             Tested                                    2              2    2                100%
                           Addressed in
                                          2    2    2    2         2   2    2    2    2    2    2   100%
                             COOP
  Alternate Facilities
                             Tested                                    2              2    1                83%
                           Addressed in
     Interoperable                        2    2    2    2         0   2    2    2    2    2    2   91%
                             COOP
    Communications           Tested                                    1              1    1                50%
                           Addressed in
   Vital Records and                      2    2    2    2         2   2    1    1    1    2    2   86%
                             COOP
       Databases             Tested                                    1              2    1                67%

 2 = addressed
 1 = partially addressed
 0 = not addressed



We observed that while the Regional Emergency Coordinators were eager to find out how
their respective COOP plans could be improved, they had received minimal guidance or
feedback from OEM. However, this condition does not appear to be a function of neglect
or inattention on the part of OEM. In our opinion, OEM’s impact on emergency
management was handicapped during 2003 because it was a newly established
organization and still in the process of recruiting staff. OEM was also assigned additional
responsibilities that had only a tangential relationship to emergency management such as
parking and security in the central office building. It has yet to cultivate the necessary
experience or develop the resources needed to provide effective feedback.

The creation of a robust and complete COOP plan requires a significant investment of
time, labor, and detailed technical knowledge of the organization’s operation. It is a
challenging task. The typical region will have its own Federal Supply Service, Public
Buildings Service, and Federal Technology Service components, which are separately
addressed in the region’s COOP plan. Predictably, different regions will attempt to solve
similar tasks in different ways. Inevitably, some will be better than others. As it develops
the necessary expertise, OEM in our opinion has an opportunity to add real value to
emergency management in general and COOP plans in particular, by virtue of its expected
role as a central clearinghouse for emergency management. Organizationally, OEM is in


                                                              6

GSA/OIG/A030160/A/W/F05016


the logical position to spot systemic problems early and to share best practices effectively.
In our comparison of COOP plans in force during 2003 to those in 2004, we found general
improvement. However, we were unable identify a significant role played by OEM in that
improvement.

COOP Testing Should Also Be Standardized Across Regions
The Office of Emergency Management has not yet proven itself effective in establishing an
active COOP training and exercise program. Since the events of September 11, 2001,
GSA has drawn on three different sources or methodologies for organizing, testing and
evaluating its COOP capability. In 2002, a temporary task force was convened to expedite
COOP development and testing. In 2003, a newly staffed OEM assumed a dominant role
subsequently plagued by controversy. In 2004, a collaborative effort by the regional
emergency coordinators effectively supplanted OEM’s role with respect to development of
a COOP test, training and exercise program. The three approaches are discussed in greater
detail below.

Task Force
Following the first emergency management conference in November 2001, as part of the
administrator’s goal of having the COOP plans for all areas of GSA fully updated and
operable, the administrator established an emergency preparedness detail. Under the
direction of the regional administrator of the Heartland Region the team’s goals were to
jumpstart, maintain, and refine the momentum of COOP preparedness and development in
the regions and central office. As part of this effort, tabletop exercises3 were held in each
of the regions to evaluate the critical elements within their COOP plans. The same
objectives were used for each of the regional COOP exercises, and the resultant feedback
played a large role in shaping the agenda for GSA’s second annual emergency
management conference in December 2002. Among the desired outcomes identified at the
conference were well-defined tests and exercises that detect program weaknesses and
reveal whether associates understand their roles and have the tools needed to conduct
essential functions during emergencies.

Office of Emergency Management
A more permanent structure to replace the task force emerged from the second emergency
management conference in December 2002. The lead responsibility to develop a COOP
drill and exercise plan for 2003 was assigned to OEM, incorporating the objectives
identified at the conference. The assignment proved difficult. OEM did not issue its
guidance until May 2003, guidance that even then only provided the regions with general
deployment instructions advising the regions with respect to, “alerting, mobilizing,
deploying, in-processing, bedding down, testing connectivity, and standing down.” There
were no objectives or performance measures linked with this guidance. Regions were

3
 Tabletop exercises simulate an emergency situation in an informal, stress-free environment. They are
designed to elicit constructive discussion as participants examine and resolve problems based on existing
plans. There is minimal attempt at simulation, no utilization of equipment or deployment of resources, and
no time pressures.

                                                     7

GSA/OIG/A030160/A/W/F05016


essentially on their own in developing and designing specific exercises and objectives.
The results varied widely.

An important component of a robust COOP plan is the capability of personnel to carry out
their minimum essential functions from an alternate site. Although OEM instructed the
regions to deploy all essential personnel (SERT, Phase I and Phase II), the instructions
were not uniformly adhered to. For example, among the eleven regional offices deploying
to alternate sites in 2003, five regions deployed the required essential personnel, three
deployed only SERT and Phase I, while three deployed SERT only.

Another component of a robust COOP plan is the capability to maintain critical
communications to internal organizations, customers, and the public from an alternate
facility. During the 2003 COOP exercises, ten out of eleven regions were able to
successfully achieve some degree of connectivity. However we found that there were
variations among the regions in how connectivity was tested. Variances in connectivity
testing ranged from a region testing its ability to operate e-mail from the alternate site, to
being able to access its vital records by computer from the alternate site. Because different
regions tested connectivity differently GSA’s ability as a whole to connect from the
alternate site remains unclear.

For COOP exercises in 2004 the Chief of Staff/Office of Emergency Management directed
that GSA would fulfill its exercise requirement by having all of GSA’s components4
simultaneously participate in the May 2004 Department of Homeland Security/FEMA’s
Forward Challenge 04 exercise. The Chief of Staff presented this plan to the Regional
Administrators and Heads of Services and Staff Offices (HSSOs) as a “stepping stone
approach to more complicated training and tests” in the future. Instead of having exercise
scenarios and predefined events to test specific objectives, the participants would actually
“run GSA real world business operations for two days from the COOP locations.” In
particular, the plan specified that the associates deployed to the alternate sites, should work
in shifts “that should be a minimum of 12 hours each to give a bit of additional reality to
the play and stress the system a bit.”

In our opinion this plan was not viable because: 1) it was not a “stepping stone” but a
quantum jump from the very modest and informal objectives OEM sent out in May of
2003 as discussed above, and 2) it abruptly changed the standard of operations at the
alternate sites from maintaining “essential functions” to something never planned for,
never designed for, and never tested for: “normal business.”

Regional Emergency Coordinators Collaboration
Regional dissatisfaction with the 2004 Forward Challenge exercise combined with OEM’s
inability to coordinate a response to the regions’ rejection of that plan diminished OEM’s
effective authority. The regional administrator for the Heartland Region, after consulting
with the other regional administrators, took the lead in organizing the regional emergency

4
 All components with the exception of the New England Region, which was hosting the Democratic
National Convention.

                                                  8

GSA/OIG/A030160/A/W/F05016


coordinators to develop an exercise plan with goals, objectives and a methodology. It was
not the intent of the regional administrators to develop an exercise plan in opposition to
OEM but to “remain open to working constructively with OEM.” The regional emergency
coordinators developed a proposed regional test, training, and exercise program, which the
Heartland Region regional administrator forwarded to the other regional administrators for
feedback.

As subsequently described by the Acting Chief of Staff the new COOP exercise plan is a
collaborative effort in process between the Regions and Headquarters. It identifies four
overall objectives and 21 sub-objectives, which will raise the bar substantially higher for
the exercises than in 2003. The four overall objectives are:
   1) Assess and validate regional/HSSO COOP plans and procedures; 

   2) Assess and validate the interoperability at the regional/HSSO alternate facility, 

      including communications to successor elements and other elements of the federal
      government;
   3) Assess and validate the process for receiving, processing, analyzing and
      disseminating information from internal and external customers; and
   4) Assess and validate the ability to develop policy options in coordination with other
      efforts to reconstitute regional/HSSO offices.

Performance measures will be established for each objective and sub-objective. The plan
also establishes an evaluation team, addresses the team make-up and assigns
responsibilities for the main exercise activities. It allocates costs and makes provision for
developing exercise handbooks, scenarios, and training for the evaluators. The plan also
requires associates from each region’s backup region to be evaluators. We expect that
after this test cycle has run, GSA management will have a better basis to judge how well it
can continue to sustain its essential functions in at least a minimal form in an emergency
situation. In our opinion this program significantly improves on the program in place
during our review, and will give GSA the ability to better identify COOP weaknesses and
take constructive action to either eliminate them or mitigate their impact.

Conclusion
Overall, the GSA regional offices have developed COOP plans that are in compliance with
FPC 65. However, more than one region showed a need to more completely identify its
essential functions and the information systems that support those functions. In addition,
we found that the testing necessary to validate COOP effectiveness was inconsistently
administered from region to region. All COOP elements should be subjected to testing, to
the extent practicable, and held to a common standard. An encouraging indication is the
more uniform test, training and exercise program that has emerged from the emergency
coordinators’ most recent collaborative effort.

While the regions have succeeded in continuous improvement of their individual plans,
they have done so without effective centralized program management. At the time of our
review, OEM was still in its formative stage. Accordingly, the regions have had to
improvise an emergency management forum, and the regional emergency coordinators

                                             9

GSA/OIG/A030160/A/W/F05016


assumed much of the role that would more naturally have fallen to OEM. As the only
entity in a position to observe all regional exercises and experience those lessons learned
first hand, it is the logical lead and should in the long run render real value-added
assistance and guidance. We expect that as the test cycle runs for the most recent
collaborative effort of the emergency coordinators, OEM will gradually assume a focal
position.

Recommendations
We recommend that the Chief of Staff establish an organization with authority, expertise
and resources sufficient to direct emergency preparedness in GSA. Specifically, that entity
should serve as a national focal point, capable of the following:
   a) Providing guidance, assistance and consultation to the regions through all stages of
       COOP exercises: setting objectives, selecting scenarios, determining what will be
       measured, how it is to be measured and how the results will be reported;
   b) Developing a training program for all regional emergency coordinators;
   c) Compiling and disseminating best practices and “things gone wrong”;
   d) Formalizing the COOP plan review process to ensure that it incorporates the results
       of tests and exercises, verification of corrective actions taken, and timely feedback.

Management’s Comments
The Acting Chief of Staff has provided comments to this report, which we have included
in their entirety as Appendix A. While there is concurrence with the audit
recommendations listed in the report, the Acting Chief of Staff feels many of the findings
reflected have been addressed prior to release of our report. To address the issue of a lack
of effective centralized program management, a new Office of Emergency Management
(OEM) Director was hired. With this new leadership comes the opportunity and
responsibility to implement consistent emergency management policies and practices and
provide support to the operational elements of GSA.

Management Controls
Our objectives did not include evaluating the management controls over the GSA
Continuity of Operations Program, and accordingly we do not provide an opinion.




                                             10

GSA/OIG/A030160/A/W/F05016


APPENDIX A
                  Management’s Response To Draft Report




                                   A-2
GSA/OIG/A030160/A/W/F05016


APPENDIX A
                  Management’s Response To Draft Report




                                   A-1
GSA/OIG/A030160/A/W/F05016


APPENDIX A
                  Management’s Response To Draft Report




                                   A-3
GSA/OIG/A030160/A/W/F05016


APPENDIX B
                     Elements of a Viable COOP Capability
Criteria: 

Federal Preparedness Circular – FPC 65 (Federal Emergency Management Agency) 


Elements: 

A viable COOP capability at a minimum should encompass: 

   a. Plans and Procedures                      e. Alternate Facilities
   b. Identification of Essential Functions     f. Interoperable Communications
   c. Delegations of Authority                  g. Vital Records and Databases
   d. Orders of Succession                      h. Tests, Training and Exercises

       a. Plans and Procedures - A COOP plan shall be developed and documented that
       when implemented, will provide for continued performance of essential Federal
       functions under all circumstances. At a minimum, the plan should:
              1) Delineate essential functions and activities;
              2) Outline a decision process for determining appropriate actions in
                 implementing COOP plans and procedures;
              3) Establish a roster of fully equipped and trained emergency personnel
                 with the authority to perform essential functions and activities;
              4) Include procedures for employee advisories, alerts, and COOP plan
                 activation, with instructions for relocation to pre-designated facilities,
                 with and without warning, during duty and non-duty hours;
              5) Provide for personnel accountability throughout the duration of the
                 emergency;
              6) Provide for attaining operational capability within 12 hours; and,
              7) Establish reliable processes and procedures to acquire resources
                 necessary to continue essential functions and sustain operations for up
                 to 30 days.

Review Notes:
With respect to plans and procedures, GSA’s regional components adhere to the FPC 65
criteria. We considered this element addressed if the region kept to the uniform COOP
template. The specific steps for this element, as highlighted in the above criteria, are
addressed in greater detail throughout the remainder of this appendix. Overall, we found
that GSA does have a documented plan in place that will provide for continued
performance of essential functions when implemented.




                                            B-1

GSA/OIG/A030160/A/W/F05016


APPENDIX B
                       Elements of a Viable COOP Capability
Criteria: 

Federal Preparedness Circular – FPC 65 (Federal Emergency Management Agency) 


Elements: 

A viable COOP capability at a minimum should encompass: 

   a. Plans and Procedures                      e. Alternate Facilities
   b. Identification of Essential Functions     f. Interoperable Communications
   c. Delegations of Authority                  g. Vital Records and Databases
   d. Orders of Succession                      h. Tests, Training and Exercises

       b. Identification of Essential Functions - All agencies should identify their
       essential functions as the basis for COOP planning. Essential functions are those
       functions that enable Federal Executive Branch agencies to provide vital services,
       exercise civil authority, maintain the safety and well being of the general populace,
       and sustain the industrial/economic base in an emergency. When identifying
       essential functions, agencies should:
               1) Identify all functions performed by the agency, then determine which
                  must be continued under all circumstances;
               2) 	 Prioritize these essential functions;
               3) Establish staffing and resources requirements needed to perform
                  essential functions;
               4) Identify mission critical data and systems necessary to conduct essential
                  functions;
               5) 	Defer functions not deemed essential to immediate agency needs until
                   additional personnel and resources become available; and,
               6) Integrate supporting activities to ensure that essential functions can be
                  performed as efficiently as possible during emergency relocation.

Review Notes:
GSA generally adheres to FPC 65 criteria, except that it’s regional COOP design does not
identify functions in a prioritized manner, nor require the identification of deferred (non-
essential) functions. Similarly, its COOP design does not address mission critical data and
systems as part of “essential functions” per se; these were instead identified in the vital
records section.

These “global” exceptions aside, we focused on whether the regions:
       	Identified core business functions and minimum essential functions separately;
       	Identified the position/title of the essential function;
       	Provided general or detailed descriptions of the functions;

                                               B-2
GSA/OIG/A030160/A/W/F05016


APPENDIX B
                     Elements of a Viable COOP Capability
      	Identified the required number of staff; and
       Provided the above information for each service and staff office (FTS, PBS, FSS,
       etc.). If only one service provided detailed information, and the other services were
       general, the Region received a rating of “partially addressed.”

The following Regions were determined to have “partially addressed” their essential
functions:
      Region
       	       1 provided a general list of functions with no descriptions; the number of
      staff required is listed, but not the position/title.
      Region
       	      8 provided detailed descriptions of all the major organizational units and
      the principal functions performed by these units in the text of the COOP. However,
      the key personnel and essential functions checklist provided a general description
      of functions for Phase 1 only.
      Region
       	      10 provided the position/title, but did not describe the actual function to be
      performed. Essential operation procedures for conducting limited essential
      functions were provided for each Phase.
      Region
       	       11 provided a general description of functions and the required number of
      staff for Phase I only.




                                            B-3

GSA/OIG/A030160/A/W/F05016


APPENDIX B
                     Elements of a Viable COOP Capability
Criteria: 

Federal Preparedness Circular – FPC 65 (Federal Emergency Management Agency) 


Elements: 

A viable COOP capability at a minimum should encompass: 

   a. Plans and Procedures                      e. Alternate Facilities
   b. Identification of Essential Functions     f. Interoperable Communications
   c. Delegations of Authority                  g. Vital Records and Databases
   d. Orders of Succession                      h. Tests, Training and Exercises

       c. Delegations of Authority - To ensure rapid response to any emergency situation
       requiring COOP plan implementation, agencies should pre-delegate authorities for
       making policy determinations and decisions at headquarters, field levels, and other
       organizational locations as appropriate. These delegations of authority should:
              1) 	 Identify the programs and administrative authorities needed for effective
                   operations at all organizational levels having emergency
                   responsibilities;
              2) Identify the circumstances under which the authorities would be
                 exercised;
              3) 	Document the necessary authorities at all points where emergency
                  actions may be required, delineating the limits of authority and
                  accountability;
              4) State explicitly the authority of designated successors, referred to in
                 paragraph 10d (Orders of Succession), to exercise agency direction,
                 including any exceptions, and the successor’s authority to re-delegate
                 functions and activities as appropriate;
              5) 	Indicate the circumstances under which delegated authorities would
                  become effective and when they would terminate. Generally, pre-
                  determined delegations of authority would take effect when normal
                  channels of direction are disrupted and would terminate when these
                  channels have resumed;
              6) 	Ensure that officials who may be expected to assume authorities in an
                  emergency are trained to carry out their emergency duties; and,
              7) Specify responsibilities and authorities of individual agency
                 representatives designated to participate as members of interagency
                 emergency response teams.




                                            B-4

GSA/OIG/A030160/A/W/F05016


APPENDIX B
                    Elements of a Viable COOP Capability
Review Notes:
Delegations of authority along with orders of succession were present in all regional
COOP plans.




                                         B-5

GSA/OIG/A030160/A/W/F05016


APPENDIX B
                     Elements of a Viable COOP Capability
Criteria: 

Federal Preparedness Circular – FPC 65 (Federal Emergency Management Agency) 


Elements: 

A viable COOP capability at a minimum should encompass: 

   a. Plans and Procedures                      e. Alternate Facilities
   b. Identification of Essential Functions     f. Interoperable Communications
   c. Delegations of Authority                  g. Vital Records and Databases
   d. Orders of Succession                      h. Tests, Training and Exercises

       d. Orders of Succession - Agencies are responsible for establishing, promulgating,
       and maintaining orders of succession to key positions. Such orders of succession
       are an essential part of an agency’s COOP plan. Orders should be of sufficient
       depth to ensure the agency’s ability to perform essential functions while remaining
       a viable part of the Federal Government through any emergency. Geographical
       dispersion is encouraged, consistent with the principle of providing succession to
       office in emergencies of all types. Each agency should:
              1) 	Establish an order of succession to the position of Agency Head. A
                  designated official serves as acting head of the agency until appointed
                  by the President or relieved. Where a suitable field structure exists,
                  appropriate personnel located outside the Washington, DC area should
                  be considered in the order of succession;
              2) Establish orders of succession to other key headquarters leadership
                 positions;
              3) Establish, for agencies organized according to the standard Federal
                 regional structure, an order of succession to the position of regional
                 director or equivalent;
              4) 	 Identify any limitation of authority based on delegations of authority to
                   others;
              5) 	 Describe orders of succession by positions or titles, rather than names of
                   individuals;
              6) Include the orders of succession in the vital records of the agency;
              7) Revise orders of succession as necessary, and distribute revised versions
                 promptly as changes occur;
              8) Establish the rules and procedures designated officials are to follow
                 when facing the issues of succession to office in emergency situations;




                                            B-6

GSA/OIG/A030160/A/W/F05016


APPENDIX B
                    Elements of a Viable COOP Capability
             9) Include in succession procedures the conditions under which succession
                will take place; method of notification; and any temporal, geographical,
                or organizational limitations of authorities;
             10) Assign successors, to the extent possible, among the emergency teams
                 established to perform essential functions, to ensure that each team has
                 an equitable share of duly constituted leadership; and,
             11) Conduct orientation programs to prepare successors for their emergency
                 duties.

Review Notes:
Delegations of authority along with orders of succession were present in all regional
COOP plans.




                                          B-7

GSA/OIG/A030160/A/W/F05016


APPENDIX B
                      Elements of a Viable COOP Capability
Criteria: 

Federal Preparedness Circular – FPC 65 (Federal Emergency Management Agency) 


Elements: 

A viable COOP capability at a minimum should encompass: 

   a. Plans and Procedures                      e. Alternate Facilities
   b. Identification of Essential Functions     f. Interoperable Communications
   c. Delegations of Authority                  g. Vital Records and Databases
   d. Orders of Succession                      h. Tests, Training and Exercises

       e. Alternate Facilities - All agencies shall designate alternate operating facilities
       as part of their COOP plans, and prepare their personnel for the possibility of
       unannounced relocation of essential functions and/or COOP contingency staffs to
       these facilities. Facilities may be identified from existing agency local or field
       infrastructures, or external sources. Facilities shall be capable of supporting
       operations in a threat-free environment, as determined by the geographical location
       of the facility, a favorable assessment of the local threat, and/or the collective
       protection characteristics of the facility. In acquiring and equipping such facilities,
       agencies are encouraged to consider cooperative interagency agreements and
       promote sharing of identified alternate facilities. Alternate facilities should
       provide:
              1) 	 Immediate capability to perform essential functions under various threat
                   conditions, including threats involving weapons of mass destruction;
              2) Sufficient space and equipment to sustain the relocating organization.
                 Since the need to relocate may occur without warning, or access to
                 normal operating facilities may be denied, agencies are encouraged to
                 pre-position and maintain minimum essential equipment for continued
                 operations at the alternate operating facilities;
              3) Interoperable communications with all identified essential internal and
                 external organizations, critical customers, and the public;
              4) Reliable logistical support, services, and infrastructure systems,
                 including water, electrical power, heating and air conditioning, etc.
              5) Ability to sustain operations for a period of up to 30 days;
              6) Consideration for the health, safety, and emotional well-being of
                 relocated employees; and,
              7) Appropriate physical security and access controls.




                                             B-8
GSA/OIG/A030160/A/W/F05016


APPENDIX B
                      Elements of a Viable COOP Capability
Review Notes:
We determined that each region had effectively identified and equipped a location that is
capable of supporting essential operations and personnel. All but two regions identified at
least two alternate facilities. A deployment exercise was conducted for essential personnel
in each region. This allowed the regions to test their alternate facilities to see if
requirements have been met.




                                            B-9

GSA/OIG/A030160/A/W/F05016


APPENDIX B
                      Elements of a Viable COOP Capability
Criteria: 

Federal Preparedness Circular – FPC 65 (Federal Emergency Management Agency) 


Elements: 

A viable COOP capability at a minimum should encompass: 

   a. Plans and Procedures                      e. Alternate Facilities
   b. Identification of Essential Functions     f. Interoperable Communications
   c. Delegations of Authority                  g. Vital Records and Databases
   d. Orders of Succession                      h. Tests, Training and Exercises

       f. Interoperable Communications - The success of agency operations at an
       alternate facility is absolutely dependent upon the availability and redundancy of
       critical communication systems to support connectivity to internal organizations,
       other agencies, critical customers, and the public.              When identifying
       communications requirements, agencies should take maximum advantage of the
       entire spectrum of communications media likely to be available in any emergency
       situation. These services may include, but are not limited to secure and/or non-
       secure voice, fax, and data connectivity; Internet access; and electronic mail.
       Interoperable communications should provide:
           1) Capability commensurate with an agency’s essential functions and
              activities;
           2) Ability to communicate with COOP contingency staffs, management, and
              other organizational components;
           3) Ability to communicate with other agencies and emergency personnel; and,
           4) Access to other data and systems necessary to conduct essential activities
              and functions.

Review Notes:
GSA applies the same criteria as FPC 65. All regions adequately addressed this element in
their COOP plans except for one. Although we believe it to be an oversight, the Great
Lakes Region identified the phone and data lines at the Willow Woods facility (FTS
headquarters in Virginia) as the interoperable communications plan it has in place. Willow
Woods was the default entry in the COOP template, meant to serve only as an example to
guide the regions in preparing this section.




                                           B-10

GSA/OIG/A030160/A/W/F05016


APPENDIX B
                     Elements of a Viable COOP Capability
Criteria: 

Federal Preparedness Circular – FPC 65 (Federal Emergency Management Agency) 


Elements: 

A viable COOP capability at a minimum should encompass: 

   a. Plans and Procedures                      e. Alternate Facilities
   b. Identification of Essential Functions     f. Interoperable Communications
   c. Delegations of Authority                  g. Vital Records and Databases
   d. Orders of Succession                      h. Tests, Training and Exercises

      g. Vital Records and Databases - The protection and ready availability of
      electronic and hardcopy documents, references, records, and information systems
      needed to support essential functions under the full spectrum of emergencies is
      another critical element of a successful COOP plan. Agency personnel must have
      access to and be able to use these records and systems in conducting their essential
      functions. Categories of these types of records may include:
          1) 	 Emergency Operating Records. Vital records, regardless of media,
               essential to the continued functioning or reconstitution of an organization
               during and after an emergency. Included are emergency plans and
               directives; orders of succession; delegations of authority; staffing
               assignments; and related records of a policy or procedural nature that
               provide agency staff with guidance and information resources necessary for
               conducting operations during an emergency, and for resuming formal
               operations at its conclusion.
          2) 	 Legal and Financial Records. Vital records, regardless of media, critical
               to carrying out an organization’s essential legal and financial functions and
               activities, and protecting the legal and financial rights of individuals
               directly affected by its activities. Included are records having such value
               that their loss would significantly impair the conduct of essential agency
               functions, to the detriment of the legal or financial rights or entitlements of
               the organization or of the affected individuals.
      Plans should account for identification and protection of the vital records, systems,
      and data management software and equipment, to include classified or sensitive
      data as applicable, necessary to perform essential functions and activities, and to
      reconstitute normal agency operations after the emergency. To the extent possible,
      agencies should pre-position and update on a regular basis duplicate records or
      back-up electronic files.




                                            B-11

GSA/OIG/A030160/A/W/F05016


APPENDIX B
                      Elements of a Viable COOP Capability
Review Notes:
GSA applies the same criteria for vital records as FPC 65. We found in most regional
COOP plans that FPC 65 is cited verbatim. The regions’ vital records information can be
found in this location and/or in an appendix/checklist of Emergency Operating Records.

The following Regions were determined to have “partially addressed” vital records and
databases in their COOP plans:
       Region
        	        7 did not address the restoration of PBS specific applications. None of the
       services addressed IT readiness on the emergency operating records and IT
       checklist. Last, we could not determine if records are accessible from the alternate
       facility.
       Region
       	      9 provided a sufficient list that identified the region’s vital records, but
       maintenance frequency and retrieval procedures are not included in the plan.
Though more preparation in the area of vital records and databases is required, IT
contingency plans in Region 2 for PBS and FSS were very thorough in addressing
procedures for emergency response and LAN/WAN connectivity. We believe all COOP
plans should include instructions or procedures for retrieving and accessing vital records.




                                            B-12

GSA/OIG/A030160/A/W/F05016


APPENDIX B
                     Elements of a Viable COOP Capability
Criteria: 

Federal Preparedness Circular – FPC 65 (Federal Emergency Management Agency) 


Elements: 

A viable COOP capability at a minimum should encompass: 

   a. Plans and Procedures                      e. Alternate Facilities
   b. Identification of Essential Functions     f. Interoperable Communications
   c. Delegations of Authority                  g. Vital Records and Databases
   d. Orders of Succession                      h. Tests, Training and Exercises

      h. Tests, Training and Exercises – Testing COOP capabilities is essential to
      demonstrating and improving the ability of agencies to execute their COOP plans.
      Training familiarizes contingency staff members with the essential functions they
      may have to perform in an emergency. Tests and exercises serve to validate, or
      identify for subsequent correction, specific aspects of COOP plans, policies
      procedures, systems, and facilities used in response to an emergency situation.
      Periodic testing also ensures that equipment and procedures are maintained in a
      constant state of readiness. All agencies shall plan and conduct tests and training
      to demonstrate viability and interoperability of COOP plans. COOP test, training,
      and exercise plans should provide for:
          1) 	Individual and team training of agency COOP contingency staffs and
              emergency personnel to ensure currency of knowledge and integration of
              skills necessary to implement COOP plans and carry out essential functions.
              Team training should be conducted at least annually for COOP contingency
              staffs on their respective COOP responsibilities;
          2) Internal agency testing and exercising of COOP plans and procedures to
             ensure the ability to perform essential functions and operate from
             designated alternate facility(ies). This testing and exercising should occur
             at least annually;
          3) Testing of alert and notification procedures and systems for any type of
             emergency at least quarterly;
          4) 	Refresher orientation for COOP contingency staffs arriving at an alternate
              operating facility. The orientation should cover the support and services
              available at the facility, including communications and information systems
              for exchanging information if the normal operating facility is still
              functioning; and administrative matters, including supervision, security, and
              personnel policies; and,
          5) Joint agency exercising of COOP plans, where applicable and feasible.



                                           B-13

GSA/OIG/A030160/A/W/F05016


APPENDIX B
                      Elements of a Viable COOP Capability
Review Notes:
We observed three regional tests (the Heartland Region, the Pacific Rim Region, and the
Northwest/Artic Region) during this review. Each region developed a scenario that led the
regional administrators (or a backup) to convene their SERTs, and ultimately activate the
COOP. Although all three regions developed scenarios simulating an emergency, only two
of the regions developed scenario events. These events are injected when necessary to
keep the exercise on track and ensure objectives are met. Each region developed its own
exercise objectives and methods for testing those objectives.

The Heartland and Pacific Rim Regions both time phased their essential personnel to the
alternate facility. An exercise controller guided the emergency simulation by
progressively injecting action items or scenario events into play. There was a slight
difference in the way both regions conducted their exercises.

The Heartland Region’s exercise objectives were to test deployment to the alternate site,
and from there demonstrate connectivity to various GSA interoperable communications
and IT systems. The exercise commenced on Monday, July 28, 2003, when the regional
administrator activated his SERT. The following morning, the SERT, convened from the
alternative site, and called in phase I employees followed by phase II employees to deploy
to the alternate site. The SERT operated in one room and phase I and II associates
operated in their separate rooms according to Service. The SERT delegated actions to the
appropriate Service personnel and the Service sent its response back to the SERT.
Tracking this information is a very important part of the exercise. The Heartland Region
created an email account to track all COOP related correspondence. The Public Buildings
Service assigned two associates as scribes to record and track action items received.
Another associate was assigned as a “runner” to relay communications between PBS and
the SERT. The region prepared and conducted a very well planned and organized
exercise. The two elements we deemed partially tested were “interoperable
communications” and “vital records and databases.” There was some confusion as to how
the region determined connectivity. Although some associates had Internet access, there
was doubt that they had full access to the servers and associated programs, data, and
communication beyond email.

The Pacific Rim Region’s exercise objectives were to practice the deployment of phase I
and phase II personnel to the alternate site, and to practice response activities using the
technology that would be used in a real event. The exercise began on Monday, October
20, 2003, with the SERT initiation. The following morning the SERT, convened at the
alternate site. As scenario events came in, SERT was required to complete some actions
and leave instructions for phase I and II associates. Phase I and II essential personnel
deployed to the alternate facility and continued the exercise without the SERT. The
instructions were grouped according to Service, and phase I and II associates were
required to assign the actions to the appropriate personnel.

                                             B-14

GSA/OIG/A030160/A/W/F05016


APPENDIX B
                      Elements of a Viable COOP Capability

The Pacific Rim Region also prepared and conducted a very well planned and organized
exercise. The one element we considered partially tested was “interoperable
communications”. The SERT experienced difficulty making secured and cellular calls
from the alternate facility.

The Northwest/Arctic Region’s exercise objectives were to evaluate the ability to contact
the SERT during non-duty hours and to test their ability to travel to the alternate site
without using the primary interstate highway on a weekday. The exercise began on
Sunday afternoon September 28, 2003, when the regional administrator activated his
SERT while at the airport. Our observation began the following morning when the SERT
assembled at the alternate site. Unlike the previous exercises, the SERT in this region did
not convene to discuss the emergency and then deploy all the phase I and II personnel to
the alternate site; instead, only the SERT team and a few phase I associates deployed to the
alternate facility the following morning. Once at the alternate site, exercise participants
were asked to verify the contacts in their “Jump Start Plans” and check the contents of
their “Fly-Away Kits.” Afterwards, additional exercise objectives were addressed by
allowing each participant the opportunity to express their experience with: a) the SERT
notification; b) travel routes and times commuting to the alternate site without using the
main thoroughfare; and c) the condition of “Jump Start Plans” and “Cascade Lists.”

There was some confusion among participants with regard to when the COOP was actually
activated. It is imperative that the SERT convenes and, through extensive discussions,
determine the appropriate time to activate the COOP. Since no scenario events were used
for this exercise, we consider the “essential functions” and “delegations of authority”
elements not addressed. As some participants were able to obtain connectivity to the
Internet or access the COOP using their laptops, we consider “interoperable
communications” and “vital records and databases” partially addressed. Last, because
only the SERT and a few phase I essential personnel deployed to the “alternate facility,”
we consider this element partially addressed.

Following the exercises, all regions held a “hot wash” or after action review to discuss
lessons learned and other improvements to their COOP programs.




                                             B-15

GSA/OIG/A030160/A/W/F05016


APPENDIX C
                                             Report Distribution

                                                                                                                  Copies 


Acting Chief of Staff, Office of Chief of Staff (AC) ............................................................ 3 


Director, Office of Emergency Management (ACE) ........................................................... 1 


Regional Administrator, Regions 6, 9, 10 (6A, 9A, 10A) .................................................... 3 


Audit Follow-up and Evaluation Branch (BECA) ................................................................ 1 


Office of Chief Financial Officer (B).................................................................................... 1 


Assistant Inspector General for Auditing (JA, JAO, JAN, JAS) .......................................... 4 


Regional Inspector General for Auditing (JA-F, JA-A, JA-R, JA-T)................................... 4 


Assistant Inspector General for Investigations (JI)............................................................... 1 


Regional Inspector General for Investigations (JI-W).......................................................... 1 





                                                            C-1

